          OFFICE OF
   THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


 PERFORMANCE MEASURE REVIEW:
     RELIABLITY OF THE DATA
  USED TO MEASURE THE OFFICE
    OF HEARINGS AND APPEALS
      DECISIONAL ACCURACY


   April 2002   A-12-00-10057
                                    Mission

We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority

The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision

By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                       SOCIAL SECURITY
MEMORANDUM

Date:   April 17, 2002                                                             Refer To:

To:     The Commissioner

From:   Inspector General


Subject: PerformanceMeasure Review: Reliability of the Data Used to Measure the Office of
        Hearings and Appeals Decisional Accuracy (A-12-00-10057)


        The Government Performance and Results Act (GPRA) of 1993, Public Law 103-62,
        requires the Social Security Administration (SSA) to develop performance indicators
        that measure or assess the relevant service levels and outcomes of each program
        activity. GPRA also calls for a description of the means employed to verify and validate
        the measured values used to report on program performance. Our objective was to
        assess the reliability of SSA's data used to measure the following Fiscal Year (FY) 1999
        GPRA performance indicator:

                       Office of Hearings and Appeals Decisional Accuracy Rate
                                    Percent without errors – 88 percent1

        Our audit found that the data SSA used to measure the Office of Hearings and Appeals
        (OHA) decisional accuracy rate for FY 1999 was reliable. We reviewed the Office of
        Quality Assurance and Performance Assessment's (OQA) sample selection process
        and methodology for calculating FY 1999 OHA decisional accuracy and found that:

        ·   data from the Quality Assurance (QA) function was accurately input into OQA’s
            database; and
        ·   the substantial evidence support rate was reliable.

        However, we found that OQA’s sampling plan needs to be updated to reflect current
        practices; the methodology for calculating the performance measure needs to be
        documented and stored for future reviews; and OQA’s policy of ensuring that Reviewing
        Judges (RJ) do not review cases from their own regions needs to be documented.




        1
         The FY 1999 decisional accuracy rate was stated at 88 percent in the FY 2000 Annual Performance
        Plan Status Report.
BACKGROUND
OQA performs a QA function under SSA's Deputy Commissioner for Finance,
Assessment, and Management. RJs are Administrative Law Judges (ALJ) selected for
a detail to conduct QA reviews on a sample of cases from Hearing Offices (HO) in
SSA's 10 regions. RJs review appealed disability cases to consider whether the ALJ's
final decision to allow or deny is supported by substantial evidence. If an RJ concludes
that an allowance or denial decision is not supported by substantial evidence, the case
is considered in error. The measure for OHA decisional accuracy reflects the
percentage of accurate ALJ decisions issued by the HOs. The results of the FY 1999
substantial evidence QA reviews were tabulated and used to calculate the performance
measure for the FY 1999 OHA decisional accuracy rate.

Sample Selection Process

After a disability case is adjudicated and cleared through a HO, the status of the case is
recorded on the OHA Case Control System (OHACCS). OQA selects approximately
1,400 cases (70 denials and 70 approvals for each of the 10 regions) each month from
the OHACCS database. These cases are downloaded onto the OQA server and
appended to the Disability Hearings Quality Review System (DHQRS) database. The
RJs do not review every case in the DHQRS database—OQA selects a sample of
cases for their review. To ensure objectivity, OQA’s practice is to assign cases to RJs
from a different region than where the hearing was held. For the FY 1999 performance
measure, RJs reviewed 3,915 cases—2,463 allowances and 1,452 denials—selected
from cases adjudicated in FY 1998 or later. The cases actually reviewed were not
equally distributed between favorable and unfavorable decisions in each region.
Therefore, the selection of these cases was weighted when projected to the total cases
occurring in the universe. For example, the allowances in a given region were projected
to the total allowances in that region; and the same was done for denials in each region.

QA Substantial Evidence Review Process

RJs assess whether an ALJ's ultimate decision to allow or deny is supported by
substantial evidence. RJs review the evidence, the written hearing decision, and the
hearing testimony cassette recording. Following their review, RJs complete a Data
Collection Form (DCF) concerning adjudicative and procedural issues at each level of
the decision making process. (For a description of the QA review process, see
Appendix C.)

Once the RJ's review is completed, the sample cases and DCFs are returned to OQA
headquarters. OQA staff input the DCF responses into the DHQRS database. The
OHA decisional accuracy rate is calculated based on the RJ's response to one of
two specific questions on the DCF, which asks:




                                            2
      ·   Is the ALJ's ultimate decision to allow supported by substantial evidence?
                                                   OR
      ·    Is the ALJ’s ultimate decision to deny supported by substantial evidence?


RESULTS OF REVIEW
Our audit found that the data SSA used to measure the OHA decisional accuracy rate
for FY 1999 was reliable. We reviewed OQA’s sample selection process and
methodology for calculating FY 1999 OHA decisional accuracy and found that:

·   data from the QA function was accurately input into OQA’s database; and

·   the substantial evidence support rate was reliable.

However, we found that OQA’s sampling plan needs to be updated to reflect current
practices; the methodology for calculating the performance measure needs to be
documented and retained to allow for future reviews; and OQA’s policy of ensuring that
RJs do not review cases from their own regions needs to be documented.

OQA SAMPLE SELECTION PROCESS

GPRA requires that “...agencies describe the means to be used to verify and validate
measure values," and the Office of Management and Budget (OMB) Circular A-123,
Management Accountability and Control, requires that “…documentation for
transactions, management controls and other significant events must be clear and
readily available for examination."

For the FY 1999 performance measure, RJs reviewed 3,915 cases—2,463 allowances
and 1,452 denials—selected from cases adjudicated in FY 1998 or later. We verified
that the DHQRS database contained 1,400 records downloaded from OHACCS each
month during this time period.2

OQA sampled cases from the universe of allowances and denials from each of the
10 regions. The combined allowance and denial population for the regions ranged from
7,642 (4,844 allowances and 2,798 denials) in Region 8 to 78,071 (47,555 allowances
and 30,516 denials) in Region 4. (The total for all 10 regions was 303,154.) Due to the
variance in the number of decisions among regions, OQA properly employed a
weighting methodology. A total of 3,915 decisions comprised the sample—an
acceptable sample size for projection purposes in this analysis—and the evidence
underlying each allowance or denial was reviewed by OQA to determine whether it was
supportable.

2
  OQA stated that one region’s file only contained 1,376 records for October 1998, which was insufficient
to complete the selection of 1,400 cases for that month.


                                                    3
We found that OQA’s sampling methodology has changed, but those changes have not
been documented. Specifically, we found that the sampling plan did not show that
OQA currently samples 1,400 cases per month. The sampling plan states that
1,250 cases should be sampled from the universe of approved and denied OHA
disability cases. Additionally, the plan did not explain that only a sample of the
1,400 cases downloaded each month are reviewed by the RJs and used in calculating
the performance measure. Also, the number of supportable and non-supportable
denials—determined during our review of the data—did not always add to the number of
sample counts drawn for the number of denials. Although the number of instances of
this occurrence were small and did not materially affect the soundness of the accuracy
rate, SSA should ensure these figures reconcile in the future, so that larger
discrepancies, which could effect the soundness of the rate, do not occur.

DHQRS DATABASE

We reviewed a random sample of 50 records from the 3,915 cases used in calculating
the FY 1999 performance measure. Each record represented a decision reviewed by a
RJ. The RJs used a standardized DCF for recording their decisions. We appraised
48 of the DCFs3 for the characteristic of accuracy. Accuracy was determined by the
answer to either question 13 or 21 (depending on whether the decision was an
allowance or denial) of the DCF matching the information input into the DHQRS
database. For all 48 records reviewed, we found the RJs’ decisions were accurately
entered into the OQA database. Since no errors were found during our probe sampling,
we determined that further review of potential errors was unnecessary.

We also compared data in OHACCS against the DHQRS database, and assessed
whether the 50 records in our sample were timely, reasonable, and complete. We
verified whether the claim type, hearing type, issue, claimant, and disposition matched
the criteria established by the DHQRS sample design. We compared the names and
regions of the RJs with the names and regions of the ALJs who heard the case to
determine whether RJs were reviewing cases within their own regions. We found one
instance where a RJ from Region 4 reviewed a case heard by an ALJ from a different
hearing office in the same region.

·     The timeliness criteria required the cases in the DHQRS sample to be more than
      60 days old. We found that all 50 records met the timeliness criteria.

·     A record was determined to be reasonable if the claim type, hearing type, and
      disposition matched the criteria from the DHQRS sample plan. Each of the
      50 records met the reasonableness measure.




3
    DDHQ could not find 2 of the DCFs, therefore we reviewed 48 DCFs.


                                                   4
·    A record was determined to be complete if the RJ returned the claim to DDHQ, or if
     the DCF could be located. We determined that this measure was met. Although
     2 of the DCFs could not be located, the remaining 48 were determined to be
     complete.

CALCULATION OF THE FY 1999 DECISIONAL ACCURACY RATE

We requested OQA’s methodology and the actual data used to calculate the
performance measure, so that we could re-calculate the performance measure
ourselves. OQA did not have its methodology documented and had not retained
sufficient data to allow us to re-calculate the performance measure. We informed SSA
staff of our concerns that this lack of data would satisfy neither the GPRA requirement
for describing the means to be used to verify and validate measure values, nor the OMB
Circular A-123 documentation requirement. OQA staff told us they could reconstruct
this information and subsequently provided the reconstructed data. OQA gave us
information to support its methodology for calculating the performance measure, the
universe counts, and the weights per case.

Using OQA’s data and weighting methodology, we were able to re-calculate an overall
decisional accuracy rate of 88 percent. (The allowance accuracy rate was 85 percent
and the denial accuracy rate was 92.7 percent.) Specifically, we found that the number
of allowances and denials in the sample selected for each region was accurately divided
into the total universe of allowances and denials for each region to develop a weighted
figure. This weighted figure was then multiplied by the number of supportable and
non-supportable allowances and denials in the sample to develop a weighted estimate
of these characteristics in the population, by region. Simple division was employed
correctly to develop allowance and denial support rate percentages by region, which
were then combined into a single support rate by region, and varied from 82.6 percent
in Region 1 to 90.6 percent in Region 4.

CONCLUSIONS AND RECOMMENDATIONS
We determined that the data SSA used to measure the OHA decisional accuracy rate
for FY 1999 was reliable. However, we found that OQA’s sampling plan had not been
updated even though substantial changes had been made to the sampling plan.
Further, OQA had not retained adequate documentation to support its calculation of the
performance measure, and had to reconstruct information for our audit. We also found
an unwritten policy in which OQA assigns cases to RJs from regions different than the
ALJ who held the hearing. We recommend that SSA:

1.   Update the sampling plan to reflect the current sampling methodology being used
     by OQA.

2.   Document the methodology for calculating the performance measure and retain that
     documentation to allow for the timely verification of the performance measure
     values.


                                            5
3.   Document the policy whereby a RJ is not assigned to review cases heard by ALJs
     in the RJ’s region.

AGENCY COMMENTS
In response to our draft report, SSA agreed with our recommendations. Specifically,
SSA plans to: update the sampling plan, document and retain the calculation
methodology, and document the RJ review policy. (See Appendix E for SSA’s
comments.)




                                              James G. Huse, Jr.




                                          6
                             Appendices
APPENDIX A – Scope and Methodology

APPENDIX B – Acronyms

APPENDIX C – Process for Determining OHA Decisional Accuracy

APPENDIX D – Other Matters

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                                       Appendix A

Scope and Methodology
Our objective was to assess the reliability of the Social Security Administration's (SSA)
performance data used to measure the Office of Hearings and Appeals (OHA)
decisional accuracy rate.

To accomplish our objective, we:

·   Reviewed the Office of Quality Assurance and Performance Assessment’s (OQA)
    sampling methodology.

·   Determined whether the data file from the Office of Hearings and Appeals Case
    Control System (OHACCS) was accurately downloaded to the OQA database.

·   Selected a random sample of 50 records from the 3,915 cases reviewed by
    Reviewing Judges (RJ) in Fiscal Year (FY) 1999 from the OQA data file and
    examined the records for timeliness, reasonableness and completeness.

·   Verified whether the RJs’ decisions on the data collection forms in the 50 cases
    selected were accurately entered in the OQA data file.

·   Reviewed SSA's Accountability Report for FY 1999, Annual Performance Plans for
    FYs 1999 and 2001, and FY 2000 Annual Performance Plan Status Report to
    determine the baseline data, definition, and data source for the performance
    indicator.

·   Interviewed OQA policy and program staff regarding the methodologies and
    procedures used to produce performance data for the OHA decisional accuracy rate.


·   Reviewed the Government Performance and Results Act and Office of Management
    and Budget Circulars.

·   Reviewed the system edits built into the Disability Hearings Quality Review System
    database.

Our audit did not include a test of OHACCS to verify the completeness of the data file
provided by SSA. In addition, we did not determine the accuracy of the quality
assurance (QA) review used by OQA to determine the OHA decisional accuracy rate
due to the technical nature of the QA review. Our audit was limited to assessing OQA's
methodology and data used for calculating the rate.




                                          A-1
We performed our audit at the OQA office in Woodlawn, Maryland; and OHA
headquarters in Falls Church, Virginia between October 2000 and January 2002. The
entity audited was OQA within the Office of the Deputy Commissioner for Finance,
Assessment and Management. We conducted our audit in accordance with generally
accepted government auditing standards.




                                        A-2
                                                        Appendix B

ACRONYMS

ALJ        Administrative Law Judge
APP        Annual Performance Plan
DCF        Data Collection Form
DDHQ       Division of Disability Hearings Quality
DDS        Disability Determination Services
DHQRP      Disability Hearings Quality Review Process
DHQRS      Disability Hearings Quality Review System
FY         Fiscal Year
GPRA       Government Performance and Results Act
HO         Hearing Office
OHA        Office of Hearings and Appeals
OHACCS     Office of Hearings and Appeals Case Control System
OIG        Office of the Inspector General
OIM        Office of Information Management
OMB        Office of Management and Budget
OQA        Office of Quality Assurance and Performance Assessment
QA         Quality Assurance
RJ         Reviewing Judge
SSA        Social Security Administration
SSN        Social Security Number
                                                                                                       Appendix C

     P r o c e s s f o r D e t e r m in in g O H A D e c is io n a l A c c u r a c y

O ffic e o f In fo rm a tio n M a n a g e m e n t (O IM ) c re a te s a n e x tra c t file fro m
O ffic e o f H e a rin g s a n d A p p e a ls C a s e C o n tro l S y s te m ( O H A C C S )
c o n ta in in g la te s t tra n s a c tio n fo r e a c h c a s e in O H A C C S .


D iv is io n o f D is a b ility H e a rin g s Q u a lity (D D H Q ) in p u ts d a ta , m o n th a n d
n u m b e r o f c a s e s re q u ire d fo r s a m p le o n S o c ia l S e c u rity A d m in is tra tio n
m a in fra m e a n d n o tifie s O IM .


O IM c r e a te s th e m o n th ly s a m p le file .


T h e s a m p le file is d o w n lo a d e d o n to th e O ffic e o f Q u a lity A s s u ra n c e a n d
P e rfo rm a n c e A s s e s s m e n t s e r v e r a n d a p p e n d e d to th e D is a b ility H e a r in g s
Q u a lity R e v ie w S y s te m (D H Q R S ) d a ta b a s e .


A ll fo ld e rs fo r th e c a s e s s e le c te d a s th e s a m p le a re re q u e s te d th r o u g h
v a rio u s c o n ta c ts .


W h e n fo ld e rs a re re c e iv e d , th e y a re s c re e n e d fo r e x c lu s io n s a n d
c o m p le te n e s s .


C a s e s a re a s s ig n e d to R e v ie w in g J u d g e s (R J ) a n d d a ta is e n te re d in to
th e D H Q R S c a s e c o n tr o l s y s te m fo r c a s e s d e te rm in e d to b e c o m p le te .



F o ld e rs a r e m a ile d to th e R J s w ith d a ta c o lle c tio n fo rm s (D C F ) a tta c h e d .



R J s re v ie w th e c a s e s a n d c o m p le te th e D C F . T w o re v ie w q u e s tio n s
p o in t to th e s u p p o r te d -b y -s u b s ta n tia l- e v id e n c e p e rfo rm a n c e m e a s u re .



F o ld e rs a r e re tu rn e d to th e D D H Q w ith th e D C F . T h e fo rm is re v ie w e d
fo r c o m p le te n e s s a n d c o n s is te n c y .




D C F in fo rm a tio n is e n te re d in to D H Q R S d a ta b a s e .



A fte r a ll in fo rm a tio n is e n te re d in to D H Q R S d a ta b a s e , D C F s a r e p la c e d in
in d iv id u a l file fo ld e r s a n d file d b y S o c ia l S e c u rity n u m b e r .



D a ta is a n a ly z e d b y D D H Q s ta ff to c o m p a re to d a ta re p o rte d in p re v io u s
r e p o rtin g p e rio d s .




R e s u lts o f a n a ly s is a re re p o rte d in a n n u a l a n d b ie n n ia l r e p o rts .
                                                                               Appendix D

Other Matters
Accuracy at the Initial Level and the Appeals Level

SSA has two Government Performance and Results Act performance indicators that
report the accuracy of disability decisions. The first indicator, Disability Determination
Services (DDS) decisional accuracy, reflects the percentage of correct initial
determinations issued by State DDSs1 and the second indicator—discussed in this
report—is Office of Hearings and Appeals (OHA) decisional accuracy, which reflects the
percentage of correct disability hearing decisions issued by OHA. The Office of Quality
Assurance and Performance Assessment (OQA) performs both DDS and OHA
decisional accuracy reviews.

Currently, SSA does not have a method to assess the overall accuracy of payment
outlays for disability-based benefits taking into account DDS and OHA case decisions
and other non-medical factors of eligibility. According to SSA, such a measurement
system is being developed.

SSA’s statistics show a distinct difference in the outcome of disability decisions at the
initial and appeals levels. For example, in Fiscal Year (FY) 1999 the DDS accuracy rate
for denials was between 93.4 percent and 98.7 percent. During the past 3 years, the
percentage of cases where OHA has issued a fully or partially favorable disability
decision has ranged between 55 and 60 percent, as shown in the table below.

                             Disability
          Fiscal          Dispositions by             ALJs Issued          Percentage of
           Year            OHA Hearing                 Favorable           Favorable ALJ
                              Offices                  Decisions             Decisions
           1999               520,478                   284,371                55%
           2000               448,115                   258,647                58%
           2001               393,093                   236,806                60%

According to SSA staff, there are many factors that result in different decisions at the
Administrative Law Judge (ALJ) level and the initial level. These factors include
presentation of additional medical evidence at the ALJ level, and worsened and/or new
impairments.

Greater consistency between decisions made by the DDSs and OHA would result in
either program or administrative savings. The following example illustrates this point. If
the number of DDS denials in FY 1999 upheld by OHA increased by 5 percent, annual
Disability Insurance program savings would be approximately $117 million, and annual
1
 Performance Measure Review: Reliability of the Data Used to Measure Disability Determination
Services Decisional Accuracy (A-07-99-21007)


                                              D-1
Supplemental Security Income program savings would be approximately $69 million.2
Conversely, if 10 percent of the denials overturned by OHA were considered allowances
at the DDS level, SSA could save approximately $19.9 million in administrative costs.




2
 The potential rates of improvement are not based on any known study, but are only used to show
potential levels of savings if various levels of improved reversal rates were achieved.


                                               D-2
                  Appendix E
Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM

Date:      March 11, 2002                                                       Refer To:   S1J-3
To:        James G. Huse, Jr.
           Inspector General
From:      Larry Dye      /s/
           Chief of Staff
Subject:   Office of the Inspector General (OIG) Draft Report, “Performance Measure Review: Reliability
           of the Data Used to Measure the Office of Hearings and Appeals Decisional Accuracy”
           (A-12-00-10057)—INFORMATION


           We appreciate the OIG’s efforts in conducting this review. Our comments on the draft report
           content and recommendations are attached.

           Staff questions may be referred to Laura Bell on extension 52636.

           Attachment:
           SSA Response




                                                       E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “PERFORMANCE MEASURE REVIEW: RELIABILITY OF THE DATA
USED TO MEASURE THE OFFICE OF HEARINGS AND APPEALS DECISIONAL
ACCURACY (A-12-00-10057)


We appreciate the opportunity to comment on the draft report. Overall, we found value in the
report contents and agree with the OIG’s recommendations. We expect to have the
documentation for all three recommendations prepared by June 30, 2002.

Recommendation 1

SSA should update the sampling plan to reflect the current sampling methodology being used by
the Office of Quality Assurance and Performance Assessment (OQA).

Comment

We agree, and we will update the sampling plan to reflect the current sampling methodology
used by OQA.

Recommendation 2

SSA should document the methodology for calculating the performance measure and retain that
documentation to allow for the timely verification of the performance measure values.

Comment

We agree and will document the methodology for calculating the performance measure and
retain that documentation to allow for the timely verification of the performance values.

Recommendation 3

SSA should document the policy whereby a Reviewing Judge (RJ) is not assigned to review
cases heard by Administrative Law Judges (ALJ) in the RJ’s region.

Comment

We agree and will document the policy whereby the RJ is not assigned to review cases heard by
ALJs in the RJ’s region.




                                            E-2
                                                                       Appendix F
OIG Contacts and Staff Acknowledgments
OIG Contacts

   Rona Rustigian, Director, (617) 565-1819

   Michael Maloney, Deputy Director, (703) 578-8844

Staff Acknowledgments

In addition to those named above:

   Brennan Kraje, Statistician

   Charles Zaepfel, Computer Specialist


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-12-00-10057.
                           DISTRIBUTION SCHEDULE

                                                                          No. of
                                                                         Copies

Commissioner of Social Security                                             1
Management Analysis and Audit Program Support Staff, OFAM                  10
Inspector General                                                           1
Assistant Inspector General for Investigations                              1
Assistant Inspector General for Executive Operations                        3
Assistant Inspector General for Audit                                       1
Deputy Assistant Inspector General for Audit                                1
 Director, Data Analysis and Technology Audit Division                      1
 Director, Financial Audit Division                                         1
 Director, Western Audit Division                                           1
 Director, Southern Audit Division                                          1
 Director, Northern Audit Division                                          1
 Director, General Management Audit Division                                1
Issue Area Team Leaders                                                    25
Income Maintenance Branch, Office of Management and Budget                  1
Chairman, Committee on Ways and Means                                       1
Ranking Minority Member, Committee on Ways and Means                        1
Chief of Staff, Committee on Ways and Means                                 1
Chairman, Subcommittee on Social Security                                   2
Ranking Minority Member, Subcommittee on Social Security                    1
Majority Staff Director, Subcommittee on Social Security                    2
Minority Staff Director, Subcommittee on Social Security                    2
Chairman, Subcommittee on Human Resources                                   1
Ranking Minority Member, Subcommittee on Human Resources                    1
Chairman, Committee on Budget, House of Representatives                     1
Ranking Minority Member, Committee on Budget, House of Representatives      1
Chairman, Committee on Government Reform and Oversight                      1
Ranking Minority Member, Committee on Government Reform and Oversight       1
Chairman, Committee on Governmental Affairs                                 1
Ranking Minority Member, Committee on Governmental Affairs                  1
                                                                             Page 2

Chairman, Committee on Appropriations, House of Representatives                1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                      1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                      1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                      1
Chairman, Committee on Appropriations, U.S. Senate                             1
Ranking Minority Member, Committee on Appropriations, U.S. Senate              1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate                1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                   1
Chairman, Committee on Finance                                                 1
Ranking Minority Member, Committee on Finance                                  1
Chairman, Subcommittee on Social Security and Family Policy                    1
Ranking Minority Member, Subcommittee on Social Security and Family Policy     1
Chairman, Senate Special Committee on Aging                                    1
Ranking Minority Member, Senate Special Committee on Aging                     1
Vice Chairman, Subcommittee on Government Management Information
  and Technology                                                               1
President, National Council of Social Security Management Associations,
  Incorporated                                                                 1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                 1
Social Security Advisory Board                                                 1
AFGE General Committee                                                         9
President, Federal Managers Association                                        1
Regional Public Affairs Officer                                                1


Total                                                                         97
                   Overview of the Office of the Inspector General

                                         Office of Audit

The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                                Office of Executive Operations

The Office of Executive Operations (OEO) provides four functions for the Office of the
Inspector General (OIG) – administrative support, strategic planning, quality assurance, and
public affairs. OEO supports the OIG components by providing information resources
management; systems security; and the coordination of budget, procurement,
telecommunications, facilities and equipment, and human resources. In addition, this Office
coordinates and is responsible for the OIG’s strategic planning function and the development and
implementation of performance measures required by the Government Performance and Results
Act. The quality assurance division performs internal reviews to ensure that OIG offices
nationwide hold themselves to the same rigorous standards that we expect from the Agency.
This division also conducts employee investigations within OIG. The public affairs team
communicates OIG’s planned and current activities and the results to the Commissioner and
Congress, as well as other entities.
                                     Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                               Counsel to the Inspector General

The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
